E-Mail Address: 775 H Street, N.E.
Est eal briefs@wilsonepes.com Washington, D.C. 20002

WO

Web Site: Tel (202) 789-0096
aA www.wilsonepes.com Fax (202) 842-4896
No. 20-1114

THE AMERICAN HOSPITAL ASSOCIATION, et al.,

Petitioners,
v.

NORRIS COCHRAN, in his official capacity as the
Acting Secretary of Health and Human Services, et al.,

Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on March 12, 2021, three (3) copies of the BRIEF OF AMICI CURIAE
YALE NEW HAVEN HEALTH SYSTEM, BJC HEALTH CARE, UPMC AND VANDERBILT
UNIVERSITY MEDICAL CENTER IN SUPPORT OF PETITION FOR A WRIT OF CERTIORARI
in the above-captioned case were served, as required by U.S. Supreme Court Rule 29.5(c), on the
following:

DONALD B. VERRILLI JR. ELIZABETH B. PRELOGAR
MUNGER, TOLLES & OLSON LLP Acting Solicitor General
601 Massachusetts Avenue, NW UNITED STATES DEPARTMENT OF JUSTICE
Suite 500E 950 Pennsylvania Avenue, NW
Washington, DC 20001-5369 Washington, DC 20530-0001
(202) 220-1101 (202) 514-2217
Counsel for Petitioners Counsel for Respondent
American Hospital Association, et al. Norris Cochran, in his official

capacity as Acting Secretary of Health
and Human Services

The following email addresses have also been served electronically:

donald.verrilli@mto.com
SupremeCtBriefs@USDOJ.gov

wschultz@zuckerman.com ZZ W MM

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 12th day of March 2021.

COLIN CaskY HOGAN
NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
